No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES
NATALIE ANGELES
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
I, Pia Lederman, do certify that on this date, September 16, 2020,
pursuant to Supreme Court Rules 29.3 and 29.4, I have served the attached
Motion for Leave to Proceed in Forma Pauperis and Petition for a Writ of
Certiorari on each party to the above proceeding, or that party's counsel, and
on every other person required to be served. I have served the Supreme Court
of the United States via Federal Express, overnight. The Solicitor General,
Assistant United States Attorney Brian McKay and the petitioner were each
served by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Brian McKay
(brian.mckay@usdoj.gov)
Assistant U. S. Attorney
U.S. Attorney's Office
Northern District of Texas
Suite 300
1100 Commerce Street
Dallas, TX 75242-1699
214-659-8684
Noel Francisco
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave.,N. W.
Washington, DC 20530-0001
/s/ Pia Lederman
Pia Lederman
Counsel of Record for Petitioner

